                               MEMORANDUM

                                   January 17, 2008

TO:           Diego T. Ruiz
              Executive Director

FROM:         H. David Kotz
              Inspector General

SUBJECT:      Prohibition on Use of Government Resources and Official Time to
              Support Private Businesses (No. 444)

Several investigations conducted by the Office of Inspector General (OIG) have
uncovered evidence that Commission employees or contractors were using government
computer resources and official time to support private businesses, including
photography, real estate and computer businesses. In some instances, the amount of time
and resources expended in support of the private businesses was quite substantial.

While employees are permitted limited personal use of government office equipment
during the employees non-work time, employees are expressly prohibited from using
government office equipment to maintain or support a personal private business. SECR
24-4.3, Use of SEC Office Equipment (Revised Mar. 8, 2002); see also SECR 24-
04.A01, SEC Rules of the Road, Rule #1 (warning employees not to use SEC information
technology resources for commercial purposes, or personal financial gain, or in support
of “for-profit” activities). The investigations conducted by the OIG demonstrate that
several employees are not abiding by these rules.

We believe that management should send a reminder to all Commission employees and
contractors of the policies and procedures prohibiting use of Commission resources and
time to support personal private businesses. The reminder should include specific
examples of the types of activities that are prohibited. Management should also remind
employees of the possible penalties for violating these policies and procedures.

       Recommendation A

       The Office of the Executive Director, in consultation with the Office of
       the General Counsel and the Office of Information Technology, should
       send a reminder to all SEC employees and contractors advising that SEC
       resources and time may not be used to support private businesses,
       providing specific examples of prohibited activities, and discussing the
       possible disciplinary actions that may result from such conduct.

cc:    Peter Uhlmann, Chief of Staff
       Brian Cartwright, General Counsel
       Richard Humes, Associate General Counsel for Litigation
       William Lenox, Ethics Counsel
Corey Booth, Chief Information Officer
Joseph Gerrity, Chief Information Security Officer
Dan Lisewski, Branch Chief for Information Resources Management
Jeffrey Risinger, Associate Executive Director for Human Resources
Darlene Pryor, Management Analyst, Office of Executive Director




                                   2
